June 8, 2011

PAUL E. VOGEL
PRESIDENT AND CHIEF MARKETING/SALES OFFICER

MEGAN J. BRENNAN
CHIEF OPERATING OFFICER AND EXECUTIVE VICE PRESIDENT

JOSEPH CORBETT
CHIEF FINANCIAL OFFICER AND EXECUTIVE VICE PRESIDENT

ELLIS A. BURGOYNE
CHIEF INFORMATION OFFICER AND EXECUTIVE VICE PRESIDENT

MARIE THERESE DOMINGUEZ
VICE PRESIDENT, GOVERNMENT RELATIONS AND PUBLIC POLICY

SUBJECT: Audit Report – Postal Service’s Innovation Process for Competitive
         and Market-Dominant Products (Report Number MS-AR-11-004)

This report presents the results of our self-initiated audit of the U.S. Postal Service’s
innovation process (Project Number 09RG014MS000). Our objective was to assess the
Postal Service’s innovation process for competitive and market-dominant products. This
is the first project of two that we plan to perform on innovation at the Postal Service. We
plan to follow this project with a detailed analysis of the innovation management
processes used by several major companies. 1 This audit addresses strategic risk to the
Postal Service. See Appendix A for additional information about this audit.

To overcome its current financial challenges, 2 the Postal Service must recognize
innovation not as the byproduct of an effort to improve operational efficiency only, but as
a distinct strategic goal and activity. It must embrace a culture of innovation that begins
with the most senior levels of management, understand the process that turns ideas into
innovation, and commit to an organizational structure that allows innovation teams to
work free from the constraints of day-to-day operations.


1
  Specifically, we plan to review innovation management in major U.S. corporations to determine how they integrate
innovation strategies into their business strategy, create and capture new ideas from internal and external sources,
determine which innovations to pursue, evaluate the progress of each innovation initiative, and manage the
relationship between the innovation activity and ongoing work.
2
  The Postal Service is facing significant financial challenges as mail volumes decline because of the economic
downturn and electronic diversion. Volume declined 12.8 percent in fiscal year (FY) 2009 and 3.5 percent in FY 2010.
The Postal Service lost $3.8 billion and $8.5 billion in FYs 2009 and 2010, respectively.
Postal Service’s Innovation Process for Competitive                                                      MS-AR-11-004
 and Market-Dominant Products


Conclusion

The Postal Service faces regulatory and market constraints to innovation that private
companies do not. For example, it must prove to the Postal Regulatory Commission
(PRC) that new products and services will not violate statutory restrictions, will cover
their attributable costs, 3 and will not create an unfair competitive advantage. 4 The
Postal Service may not offer loss leaders, defined as goods or services advertised and
sold at or below cost, 5 whereas private sector businesses are free to use this business
strategy. Despite these external barriers, the Postal Service has introduced some
innovations including Priority Mail® Flat Rate Boxes, Intelligent Mail barcode (IMb),
Critical Mail, Simplified Addressing, and the Flats Sequencing System (FSS).

However, management should increase its efforts to support a culture of innovation that
would support advancements within current statutory authority. This includes a
comprehensive innovation strategy and a more disciplined process for the development
and implementation of market-based initiatives. One approach worth considering is the
creation of an organizational structure that allows dedicated innovation teams to work
free from the constraints of also managing day-to-day operations in support of existing
products and services. Liberated from the constant burden of meeting stringent
deadlines and production goals, these innovators would be free to spend additional time
developing product line extensions, additional special services, 6 and experimental
products.

Regulatory Constraints

The Postal Reorganization Act of 1970 (PRA) created a business model for the
Postal Service that relied on moderate volume growth and periodic rate increases to
finance universal service. As long as mail volume was increasing, there was no urgent
need to innovate. While this business model was sufficient to finance operations
throughout most of the 20th Century, it did not anticipate the impact of electronic
diversion and a prolonged economic downturn.




3
  The Postal Accountability and Enhancement Act of 2006 (Postal Act) defines attributable costs as the “direct and
indirect postal costs attributable to such product through reliably identified causal relationships.” 39 U.S.C. §3631(b).
The statute requires the PRC to “promulgate regulations to…ensure that each competitive product covers its costs
attributable,” 39 U.S.C. §3633(a)(2).
4
  39 U.S.C. §404(a)(1) states the Postal Service may not “establish any rule or regulation (including any standard) the
effect of which is to preclude competition or establish the terms of competition unless the Postal Service
demonstrates that the regulation does not create an unfair competitive advantage for itself or any entity funded (in
whole or in part) by the Postal Service.”
5
  The purpose of a loss leader is to bring in (lead) customers to the retail store on the assumption that, once inside
the store, the customers will be stimulated to buy full priced items as well. 39 U.S.C. §3662(c) states that in cases of
justified service or rate complaints, the PRC may order unlawful rates to be adjusted to lawful levels, ordering the
cancellation of market tests, ordering the Postal Service to discontinue providing loss-making products, [emphasis
added] or requiring the Postal Service to make up for revenue shortfalls in competitive products).
6
  Special services are mail services for a fee in addition to required postage that include Registered Mail™, Certified
Mail™, Insured Mail, Collect on Delivery, recorded delivery, special delivery, special handling, parcel airlift, business
reply mail, and return receipt for merchandise.


                                                           2
Postal Service’s Innovation Process for Competitive                                                  MS-AR-11-004
 and Market-Dominant Products


While foreign posts have turned to alternate businesses--including banking, investment,
and insurance--to address their economic challenges, the Postal Act prohibits the Postal
Service from offering non-postal products and services, except for a limited number that
were offered before January 1, 2006. In addition, the Postal Service faces challenges to
innovation that private sector businesses are not subject to. For example, the Postal
Service must prove to the PRC that new products and services will not violate statutory
restrictions and will not create an unfair competitive advantage. The Postal Service may
not offer loss leaders, whereas private sector businesses are free to use this business
strategy. The Postal Service is also required to attribute costs in such a way that new
products bear the full cost of research and development, advertising and promotion, and
implementation. 7 In the private sector, many of these costs are considered overhead.
Further, each product the Postal Service offers must bear transaction costs as an
individual unit, even though items sold at retail facilities are often add-ons to other
transactions with lower incremental costs.

Under legislation proposed in September 2010, 8 the prohibition against offering non-
postal products and services would be revised, allowing non-postal offerings that are in
the public interest and making use of the existing postal network, thereby giving the
Postal Service additional flexibility. The Postal Service would also be permitted to offer
services to state and local governments. For example, post offices might provide voter
registration and driver’s license renewal.

While we recognize the Postal Service is legislatively constrained from entering the
financial industry, in order to meet the needs of consumers and business partners in the
21st Century, the Postal Service must pursue product, process, and technology
innovations the statute does not prohibit while it works toward legislative changes.
These innovations could include line extensions, additional special services, and
experimental products. Without innovations that leverage technological advances and
changing consumer needs, the Postal Service risks insolvency. See Appendix B for our
detailed analysis of this topic.

Postal Service Innovation Efforts

Although the Postal Service does not have a formal innovation process or a
comprehensive innovation strategy, it has introduced innovations such as Priority Mail
Flat Rate Boxes, IMb, Critical Mail, Simplified Addressing, and the FSS. One of the
Postal Service’s most significant innovations was the introduction of worksharing in
1976, a large-scale outsourcing of postal operations to the private sector, resulting in
lower total postage costs and increased mail volume. Approximately 80 percent of mail
volume is currently workshared. The Postal Service has also introduced complex



7
  The PRC “shall…promulgate…regulations to ensure that each competitive product covers its costs attributable and
ensure that all competitive products collectively cover what the Commission determines to be an appropriate share of
the institutional costs of the Postal Service.” 39 U.S.C. §3633(a)(2)-(3).
8
  Senator Tom Carper introduced The Postal Operations Sustainment and Transformation (POST) Act of 2010 on
September 23, 2010.


                                                         3
Postal Service’s Innovation Process for Competitive                                                MS-AR-11-004
 and Market-Dominant Products


information systems such as the Address Information System (AIS) 9 and Delivery
Operations Information System (DOIS), 10 which are essential for managing its large-
scale operations. Postal Service automation innovations also required adjustments to its
network operations, 11 delivery services, and human resource management. See
Appendix B for our detailed analysis of this topic.

Comprehensive Innovation Strategy Needed

The Postal Service does not have a comprehensive innovation strategy that partners
with stakeholders to grow new revenue streams and provides feedback from concept
design to market implementation and success. Rather, the Postal Service’s innovation
strategies have focused primarily on enhancing existing products and addressing
operational needs. Postal Service officials have focused mainly on day-to-day
operations rather than on new product development and do not utilize product
development specialists, product owners, and distinct innovation teams that are free
from operational responsibilities to energize and engineer the innovation of new
revenue streams and products. Product implementation can experience delays or failure
without designated product owners, free from the conflicting demands of daily
operations, to track progress. See Appendix B for our detailed analysis of this topic.

Need for a Consolidated Approach to Product Development

Although the Postal Service has a process for approving investments in some new
products, it does not have a consolidated approach to product development. Rather,
each functional unit follows its own procedures. Those procedures depend on the type
of product being developed and the resources required to implement the product.
Further, while the Postal Service provides instructions for submitting ideas, concepts,
products, processes, or technology in a publication, 12 these instructions address
improvements in Postal Service operations, not entrepreneurial marketing efforts
intended to increase market share. Further, the type of submissions these instructions
cover is limited, and the instructions provide little guidance beyond an address to which
to send the proposal. See Appendix B for our detailed analysis of this topic.

Need for Independent Innovation Teams

The Postal Service could benefit from independent innovation teams. Innovation experts
contend that to innovate successfully, companies must distinguish the innovation team
from operations. According to a recent Capgemini survey of 28 postal operators from
around the world, “among those operators who consider themselves innovative…most
have defined, separate budgets, teams, and decision-making processes in place.”

9
  AIS products are raw database files made available to customers to enhance address standardization and/or obtain
detailed address information.
10
   DOIS is a system developed to improve the management of delivery unit operations. Delivery unit supervisors use
DOIS to effectively manage the daily activities of city carriers.
11
   Network Operations is responsible for the national network of mail processing and distribution centers, and the
domestic transportation network that moves the U.S. Mail.
12
   Publication 131, The Postal Service Unsolicited Proposal Program, published January 2003.


                                                        4
Postal Service’s Innovation Process for Competitive                                                    MS-AR-11-004
 and Market-Dominant Products



Innovation experts Vijay Govindarajan and Chris Trimble also emphasize the
importance of distinguishing the innovation team from operations, stating, “Every
innovation initiative needs a special kind of team and plan.” They stated, “One of the
most common reasons that established companies struggle to execute innovation
initiatives is that they fail to appreciate just how differently they must treat them. The
group working on an innovation initiative cannot just be a home to a more creative
culture….The innovation team must be distinct from [operations].”

The Postal Service lags behind leading innovative companies such as Procter &
Gamble (P&G), Nokia, and 3M in this regard. Unlike the Postal Service, these
companies have implemented strategic processes or business units specifically
designed to foster innovation, unencumbered by the demands of day-to-day operations.
For example, P&G created the position of vice president for innovation and knowledge
and transformed its traditional in-house research and development process into an
open-source innovation strategy. Nokia has a research center dedicated to open
innovation through collaboration with world-leading institutions, and 3M uses teams of
four to six individuals from both technical and marketing functions to explore areas
where existing company knowledge is slim, because those areas represent prime areas
for generating new products and concepts.

In each case, what matters is not the exact organizational structure, but that those
tasked with innovation are free to focus on innovation. Innovative companies use a top-
down innovation strategy with dedicated staff to coordinate and focus their efforts. Their
innovation teams thus have the opportunity to develop creative solutions to ever-
changing consumer demands, because they do not carry the additional burden of
meeting operational goals. Instead, they can focus on solving consumer problems and
meeting customer needs with innovative products. To understand how a company can
meet its customers’ needs, innovation teams cannot be isolated from operations, but
they must not be impeded by operational duties either. See Appendix B for our detailed
analysis of this topic.

Need to Effectively Manage Ideas from External Stakeholders

The Postal Service has a system to track ideas for improvements that are generated by
Postal Service employees. The eIDEAS program is a web-based application that allows
Postal Service employees to submit ideas online or at kiosks located in processing
plants. The Postal Service encourages employees to contribute constructive ideas to
improve customer satisfaction, generate revenue, increase productivity, and improve
competitiveness. 13 However, management of that system has been troubled. A U.S.
Postal Service Office of Inspector General (OIG) report published in August 2010 14
found that the eIDEAS program was not timely, and management’s resulting actions
were not transparent.

13
   Local supervisors usually complete level 1 evaluations. District or area managers usually complete level 2
evaluations. National - level personnel or functional vice presidents usually complete level 3 evaluations.
14
   eIDEAS Timeliness and Transparency, Report Number DA-MA-10-003, dated August 3, 2010.


                                                          5
Postal Service’s Innovation Process for Competitive                              MS-AR-11-004
 and Market-Dominant Products



Although it has a system for employee ideas, the Postal Service has not developed a
formal tracking system to capture innovation ideas presented by the public and
members of the mailing community. Such a tracking system would allow the Postal
Service to systemically evaluate the ideas presented, including trends or common
overarching themes regarding ideas for innovation.

Tracking of innovative ideas is even more important as the Postal Service begins
engaging stakeholders in a more focused way on the process of innovation. The
Postal Service has held three innovation symposiums in the past year to seriously
engage with stakeholders on innovation. At the August 11, 2010, Mailers’ Technical
Advisory Committee Innovation Symposium, one of the presenters 15 proposed creating
a culture of innovation. In Portland, OR, on September 15, 2010, the postmaster
general stressed that long-term sustainability for the Postal Service will be achieved
through fundamental change. He asked Postal Customer Councils (PCC) and the
mailing industry for their best ideas on new products and services and encouraged them
to become a part of the Postal Service’s “era of innovation.” At the William F. Bolger
Academy in Potomac, MD, on October 13, 2010, approximately 200 stakeholders
representing Congress, regulators, customers and the Postal Service heard
presentations from experts on the future of the mail and shared their thoughts on
innovation.

Some entrepreneurs seeking to partner with the Postal Service by introducing
innovative products or services offered their views regarding obstacles they
encountered. During interviews with the OIG, they described a Postal Service culture
resistant to change and unresponsive to customers’ needs. We interviewed individuals
who attempted to introduce or develop innovations at the Postal Service to obtain
feedback regarding their experiences. One individual developing innovative software for
the Postal Service noted that management delayed the project so much that it
eventually failed. However, several years later, the Postal Service implemented a
similar application. Another individual experienced significant delays in obtaining
approval for a mailing product that met his customers’ needs and satisfied Postal
Service regulations. These entrepreneurs cited further obstacles to innovation,
including:

      Guidelines regarding whom to approach with new ideas or improvements to existing
       products and services are not transparent and easily identifiable.

      The Postal Service dictates conditions to customers rather than listening to
       customers’ suggestions.

      The Postal Service discourages innovation by requiring innovators to present ideas
       without providing assurance that either the idea will be safeguarded or the innovator
       compensated.


15
     Chuck Chamberlain and Ty Taylor, Improving Innovation at USPS.


                                                         6
Postal Service’s Innovation Process for Competitive                           MS-AR-11-004
 and Market-Dominant Products


   The Postal Service resists adopting innovations suggested by customers if those
    innovations do not fit seamlessly into current operations. Instead, it requires
    customers to modify their innovations to meet all current standards.

   A process has not been established for approving new products and services or
    improvements to existing ones.

   Feedback regarding approval of products and services is not presented timely.

   Innovators within the Postal Service tend to get pushed out.

   There is an “us versus them” attitude.

   The Postal Service does not reward risk takers.

   The Postal Service, in certain situations, prohibits vendors from meeting with
    engineers to determine why products fail tests.

While the Postal Service is making an effort to engage a culture of innovation, the lack
of a comprehensive innovation strategy including systemic tracking and management of
innovative ideas has the effect of both limiting strategic vision and creating an
organization that responds slowly to a rapidly changing business and technological
environment. To overcome the challenges it faces, the Postal Service must reach
beyond its current vision and embrace a culture of innovation that begins with the most
senior levels of management, understand the process that turns ideas into innovation,
and commit to an organizational structure that allows innovation teams to work free from
the constraints of day-to-day operations. Without such a comprehensive innovation
strategy, the Postal Service jeopardizes its long-term viability through loss of business
to electronic diversion and industry competitors. See Appendix B for our detailed
analysis of this topic.

We recommend the vice president, Government Relations and Public Policy:

1. Continue to work toward legislative changes that will allow the Postal Service more
   flexibility to introduce new products and services.

We recommend the president and chief marketing/sales officer and the chief financial
officer and executive vice president:

2. Consider a comprehensive innovation strategy, based on the best practices of
   companies considered leaders in the field that includes innovation teams that are
   both independent of operations and actively collaborate with outside organizations,
   or other generally accepted forms of innovation teams. The strategy should also
   contain a system to support tracking and management of innovative ideas that are
   generated.




                                                      7
Postal Service’s Innovation Process for Competitive                           MS-AR-11-004
 and Market-Dominant Products


Management’s Comments

Management agreed with our findings and recommendation 1. Management stated that
the Postal Service’s Government Relations group widely shared the requested
legislative language with members of Congress in March and April 2010 and continues
to advocate for this change. Management further stated that they support recent
legislation introduced by Senator Carper on September 23, 2010, and May 17, 2011, 16
which includes language increasing the Postal Service’s ability to offer new products
and services.

Management did not agree with recommendation 2 and stated that they currently have
procedures in place to collaborate with customers and outside organizations. Further,
they do not believe additional investment in separate innovation teams is warranted at
this time due to legal and competitive constraints. In the Postal Service’s recent
organizational redesign, all innovative ideas are managed and tracked by the chief
information officer, who is independent of the chief operating officer. See Appendix E for
management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendation 1, and
corrective actions should resolve the issues identified in the report. Based on
management’s actions, we consider this recommendation closed.

We consider management’s response to recommendation 2 non-responsive, as we
continue to believe that the Postal Service would benefit from implementing a
comprehensive innovation strategy using innovation teams that are independent of
operations and actively collaborative with outside organizations. We view the
disagreement on recommendation 2 as unresolved, but at this time, we do not plan to
pursue it through the formal audit resolution process.




16
     S. 1010, Postal Operations Sustainment and Transformation Act of 2011.


                                                          8
Postal Service’s Innovation Process for Competitive                         MS-AR-11-004
 and Market-Dominant Products


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet M. Sorensen, director,
Sales and Service, or me at 703-248-2100.


    E-Signed by Darrell E. Benjamin, Jr
      VERIFY authenticity with e-Sign

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Corporate Audit and Response Management




                                                      9
Postal Service’s Innovation Process for Competitive                                            MS-AR-11-004
 and Market-Dominant Products


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Innovation experts Vijay Govindarajan and Chris Trimble believe innovation is important
enough to claim, “through innovation, business organizations can change the world.”
Though the Postal Service’s mission is not to change the world, the Postal Service is a
critical part of the world’s economy and communications network and must become a
proficient innovator if it is to survive the economic challenges it faces. In an Aberdeen
Group survey, 17 manufacturers who improved product innovation processes reported an
increase in revenue and a decrease in costs. The Boston Consulting Group’s sixth
annual global survey and report on innovation 18 found that innovative companies
generate vastly superior total returns for shareholders. If innovation is crucial to a
company’s ability to increase revenue and decrease costs, to provide superior return on
investment—perhaps even to survive—the Postal Service must understand what
innovation is and how to successfully implement it.

Dirk Palder, vice president of the Global Postal Leadership Team at Capgemini, states
that innovation is the implementation of a new product, service, or process. It indicates
a new way of doing something, he notes, and may refer to incremental and emergent or
radical and revolutionary changes in thinking, products, processes, or organizations.
Palder differentiates between invention—the first occurrence of an idea for a new
product or process, and innovation—the first attempt to carry the idea out into practice.
Stephen Shapiro, author of Stephen Shapiro’s Little Book of Big Innovation Ideas, also
distinguishes between ideas and innovation. He stated that to move from merely
generating ideas—which many companies do very well—to innovation, you need a
process to systematically gather, filter, and implement ideas. The process should:

    Define opportunities.
    Find solutions.
    Strengthen, select, and plan.
    Implement.

Steve Crom, an innovation leader at Valeocon Management Consulting outlined the
process as:

    Visualize.
    Identify.
    Engage.
    Create.
    Implement.



17
   The Product Innovation Agenda Benchmark Report: Product Innovation, Product Development, and Engineering
Improvement for Profitable Growth, September 2005.
18
   Innovation 2009: Making Hard Decisions in the Downturn, April 2009.


                                                      10
Postal Service’s Innovation Process for Competitive                            MS-AR-11-004
 and Market-Dominant Products


Each step is further broken down, as illustrated in the following diagram:




Regardless of how one defines the steps, experts suggest two necessary conditions for
any innovation initiative to succeed: 1) Every level of management, from the top down,
must support the initiative, and 2) the innovation team must be distinct and independent
from operations. Additionally, this strategy would address the various phases of
innovation, including idea intake, tracking, triage, assignment to responsible entities and
monitoring of success.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess the Postal Service’s innovation process for competitive and
market-dominant products. To accomplish our objective, we:

   Reviewed the PRA, Postal Act, and policies related to Postal Service market-
    dominant and competitive products.

   Interviewed Postal Service Headquarters officials to obtain an understanding of their
    innovation process, market-dominant and competitive products, and Postal Service
    initiatives.

   Reviewed available project documents, projections and approvals to determine the
    process of implementing market-dominant and competitive product initiatives.

   Reviewed the Postal Service’s lists of product filings to the PRC.

   Reviewed literature describing the innovation process in the current business
    environment.



                                                      11
Postal Service’s Innovation Process for Competitive                         MS-AR-11-004
 and Market-Dominant Products


   Interviewed Postal Service business partners who have sought to introduce
    innovative products or services.

We conducted this performance audit from March 2009 through June 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on April 6, 2011, and included their
comments where appropriate.




                                                      12
    Postal Service’s Innovation Process for Competitive                                         MS-AR-11-004
     and Market-Dominant Products


    PRIOR AUDIT COVERAGE

                                             Final
                       Report               Report
Report Title           Number                Date                               Report Results
eIDEAS             DA-MA-10-003             8/3/2010           We found the eIDEAS program was not timely, and
Timeliness and                                                 management’s resulting actions were not
Transparency                                                   transparent. Specifically, while the eIDEAS
                                                               program guide stipulates evaluators assess ideas
                                                               within 7 days of submission, we found that
                                                               evaluators took more than 2 years to process
                                                               some ideas. We recommended that management
                                                               re-evaluate Postal Service’s level of commitment
                                                               to the eIDEAS program and implement
                                                               modifications as appropriate. We also
                                                               recommended that management take action to
                                                               improve the timeliness of the evaluation process
                                                               and the transparency of resulting management
                                                               actions. Management agreed with our
                                                               recommendations.
U.S. POSTAL        GAO-11-244T             12/2/2010           The Postal Service’s financial condition continued
SERVICE:                                                       to decline in FY 2010 and its financial outlook is
Legislation                                                    poor for FY 2011 and the foreseeable future. The
Needed to                                                      Postal Service incurred a record $8.5 billion loss,
Address Key                                                    increased its outstanding debt to the U.S.
Challenges                                                     Department of Treasury by $1.8 billion to a total of
                                                               $12 billion, and ended FY 2010 with a $1.2 billion
                                                               cash balance. The Postal Service has reported
                                                               close to $13 billion in cost savings in the past 5
                                                               fiscal years. However, as FCM, its most profitable
                                                               core product, continues to decline, the Postal
                                                               Service must modernize and restructure to
                                                               become more efficient, control costs, keep rates
                                                               affordable, and meet changing customer needs.
                                                               The proposed POST Act provides a starting point
                                                               for addressing key issues facing the Postal Service
                                                               and facilitating changes that will take time to
                                                               implement and produce results. Three key areas
                                                               addressed by the bill include compensation and
                                                               benefits, rightsizing Postal Service networks and
                                                               workforce, and whether to allow the Postal Service
                                                               to expand its non-postal activities. Allowing the
                                                               Postal Service to expand into non-postal activities
                                                               raises issues of how to mitigate risks associated
                                                               with new lines of business, assure fair competition
                                                               with the private sector, and how to finance such
                                                               efforts. Congress and the Postal Service urgently
                                                               need to take action to restore the Postal Service’s
                                                               financial viability.


                                                          13
     Postal Service’s Innovation Process for Competitive                                           MS-AR-11-004
      and Market-Dominant Products


USPS                GAO-10-191-T1           11/5/2009           The testimony focused on the Postal Service’s
Financial                                                       financial condition and outlook; described that the
Challenges                                                      Postal Act provided the Postal Service with greater
Continue, with                                                  flexibility to generate revenues; outlined the results
Relatively                                                      that the Postal Service achieved using this
Limited Results                                                 flexibility since 2006; and discussed options for the
from Recent                                                     Postal Service to generate increased revenues in
Revenue-                                                        the future. Except for annual rate increases, the
Generation                                                      Postal Service revenue-generation actions since
Efforts                                                         the Postal Act was enacted have generally
                                                                achieved limited results compared to its deficits.
                                                                The GAO stated the Postal Service has
                                                                opportunities to continue pursuing the flexibilities
                                                                provided by the Postal Act to help generate
                                                                additional revenue from postal products and
                                                                services, while also making significant reductions
                                                                in its workforce and network costs. Restructuring
                                                                will require the Postal Service to align its costs with
                                                                revenues, generate sufficient earnings to finance
                                                                capital investment, and manage its debt.




                                                           14
Postal Service’s Innovation Process for Competitive                                                        MS-AR-11-004
 and Market-Dominant Products


                                  APPENDIX B: DETAILED ANALYSIS

Regulatory Constraints

The PRA transformed the Post Office Department into an independent establishment in
order to improve the overall management and efficiency of the Post Office. The
business model created by the PRA relied on moderate volume growth and periodic
rate increases at or below the rate of inflation to finance universal service and the
expanding delivery network. The Postal Service was a monopoly, and mail volume
increased as the economy grew. The core products and services were set by
legislation, and public policy set stringent restrictions on the exercise of postal monopoly
power. While this business model was sufficient to finance operations throughout most
of the 20th Century, it did not anticipate the impact of electronic diversion and economic
downturn.

Foreign posts experiencing many similar financial challenges have turned to alternate
businesses--including banking, investment, and insurance--to address their economic
challenges. (See Appendix D for a detailed analysis of foreign postal innovations.)
However, the Postal Act prohibits the Postal Service from offering products similar to
foreign posts, except for a limited number of products that were offered before
January 1, 2006. Specifically, it states,

     Nothing in this section shall be considered to permit or require that the
     Postal Service provide any nonpostal service, except that the Postal
     Service may provide nonpostal services which were offered as of
     January 1, 2006. 19

It also states,

     …not later than 2 years after the date of enactment of the [Postal Act],
     the Postal Regulatory Commission shall review each nonpostal service
     offered by the Postal Service on the date of enactment of that Act and
     determine whether that nonpostal service shall continue, taking into
     account the public need for the service; and the ability of the private
     sector to meet the public need for the service. 20




19
   39 U.S.C. § 102(2). The Postal Act defines a non-postal service as “any service that is not a postal service defined
in 39 U.S.C. § 102(5).” In turn, 39 U.S.C. 101(5) defines a postal service as “the delivery of letters, printed matter, or
mailable packages, including acceptance, collection, sorting, transportation, or other function ancillary thereto.” Non-
postal services are therefore very broadly defined and preclude offerings commonly found at many other retail
establishments.
20
   39 U.S.C. § 102(3).


                                                            15
Postal Service’s Innovation Process for Competitive                                                     MS-AR-11-004
 and Market-Dominant Products


While the Postal Act gave the Postal Service some additional operational and market
flexibility, 21 under the Postal Act, the Postal Service maintains its monopoly of market
dominant products22 but may not introduce new non-postal products. 23

In addition, the Postal Service faces significant challenges to innovation that private
sector businesses are not subject to. For example, the Postal Service bears the burden
of proof with the PRC that new products and services will not violate statutory
restrictions, will cover their attributable costs, and will not create an unfair competitive
advantage.

Specifically, the PRC may limit the amount of revenue the Postal Service generates
from any particular geographic market to prevent the Postal Service from having an
unfair competitive advantage. The Postal Service is further limited to performing
experimental tests on products and services that are significantly different from their
current offerings. 24 In addition, the Postal Service may not offer loss leaders, whereas
private sector businesses are free to use this business strategy.

The Postal Service is also required to attribute costs in such a way that every new
product bear the full cost of research and development, advertising and promotion, and
implementation. In the private sector, many of these costs are considered overhead.
Also, each product the Postal Service offers must bear transaction costs as an
individual unit, even though items sold at retail facilities are often add-ons to other
transactions with lower incremental costs.

While these statutory and market constraints make it difficult for the Postal Service to
bring innovative products and services to the market, the Postal Service has
opportunities to further innovate postal products, processes, and technology that are not
explicitly prohibited by legislation. These innovations would assist in meeting the needs
of consumers and ensuring the continued viability of the Postal Service.

Under legislation proposed in September 2010, 25 the prohibition against offering non-
postal products and services would be revised, allowing non-postal offerings that are in
the public interest and making use of the existing postal network, thereby giving the
Postal Service additional flexibility. The Postal Service would also be permitted to offer
services to state and local governments. For example, Post Offices might provide voter
registration and driver’s license renewal. While increased innovation efforts are
possible, current legislation makes it challenging for the Postal Service to replace


21
   For example, 39 U.S.C. § 3622(b) gives the Postal Service pricing flexibility for its market dominant products and
allows retained earnings.
22
   39 U.S.C. § 3621(a) defines market dominant products as First-Class Mail ® (FCM) letters and sealed parcels,
FCM cards, periodicals, standard mail, single-piece parcel post, media mail, bound printed matter, library mail,
special services, and single-piece international mail.
23
   39 U.S.C. § 102(2).
24
   The Postal Act states that experimental products must be “significantly different from all products offered by the
Postal Service within the 2-year period preceding the start of the test.” § 203(b)(1).
25
   Senator Tom Carper introduced The Postal Operations Sustainment and Transformation (POST) Act of 2010 on
September 23, 2010.


                                                          16
Postal Service’s Innovation Process for Competitive                      MS-AR-11-004
 and Market-Dominant Products


revenue losses resulting from lower mail volume with new revenue streams generated
by innovative products.




                                                      17
Postal Service’s Innovation Process for Competitive                                                 MS-AR-11-004
 and Market-Dominant Products


Postal Service Innovation Efforts

Although the Postal Service does not have a formal innovation process or a
comprehensive innovation strategy, it has introduced innovations such as Priority Mail
Flat Rate Boxes, IMb, and the FSS. According to usps.com, mailers can ship anything
that fits into a flat rate box anywhere in the U.S. for one rate. Mailers do not need to
weigh or calculate anything, and packages reach their destination in 2 to 3 days. An IMb
placed on a mailpiece is capable of uniquely identifying the sender, mailpiece, or mail
aggregate; providing a destination ZIP Code for sortation and routing; and encoding
special service indicators or Address Change Service™ requests. The FSS sorts flat-
sized mail into walk sequence for each letter carrier, which has resulted in significant
operational efficiencies and cost savings for the Postal Service.

One of the Postal Service’s most significant innovations was the introduction of
worksharing in 1976, a large-scale outsourcing of postal operations to the private
sector, resulting in lower total postage costs and increased mail volume. Approximately
80 percent of current mail volume is workshared. The Postal Service has also
introduced complex information systems essential for managing its large-scale
operations (for example, the AIS 26 and DOIS 27). Enhancements to the Postal Service’s
automation program also required adjustments to its network operations, 28 delivery
services, and human resource management.

Comprehensive Innovation Strategy Needed

The Postal Service does not have a comprehensive innovation strategy that partners
with stakeholders to grow new revenue streams and provides feedback from concept
design to market implementation and success. Rather, the Postal Service’s innovation
strategies have focused primarily on enhancing existing products and addressing
operational needs. Postal Service officials have focused mainly on day-to-day
operations rather than on new product development and do not utilize product
development specialists, product owners, and distinct innovation teams that are free
from operational responsibilities to energize and engineer the innovation of new
revenue streams and products. Product implementation can experience delays or failure
without designated product owners, free from the conflicting demands of daily
operations, to track progress.

Need for a Consolidated Approach to Product Development

Although the Postal Service has a process for approving investments in some new
products, it does not have a consolidated approach to product development. Rather,
each functional unit follows its own procedures. Those procedures depend on the type

26
   AIS products are raw database files made available to customers to enhance address standardization and/or
obtain detailed address information.
27
   DOIS is a system developed to improve the management of delivery unit operations. Delivery unit supervisors use
DOIS to effectively manage the daily activities of city carriers.
28
   Network Operations is responsible for the national network of mail processing and distribution centers, and the
domestic transportation network that moves the U.S. Mail.


                                                        18
Postal Service’s Innovation Process for Competitive                                              MS-AR-11-004
 and Market-Dominant Products


of product being developed and the resources required to implement the product.
Further, while the Postal Service provides instructions for submitting ideas, concepts,
products, processes, or technology in a publication, 29 these instructions address
improvements in Postal Service operations and not entrepreneurial marketing efforts
intended to increase market share. Further, the type of submissions these instructions
cover is limited, and the instructions provide little guidance beyond an address to which
to send the proposal. The absence of a consolidated approach has the effect of both
limiting strategic vision and creating an organization that responds slowly to a rapidly
changing business and technological environment.

Need for Independent Innovation Teams

Innovation experts contend that to innovate successfully, companies must separate the
innovation team from operations. According to the Capgemini study, “among those
operators who consider themselves innovative…most have defined, separate budgets,
teams, and decision-making processes in place.” The study points out, “to take
innovations from their infancy to something that will well serve both the operators and
their customers requires a shift in corporate culture.”

Dirk Palder, vice president of the Global Postal Leadership Team at Capgemini, in a
survey of 28 postal operators from around the world, states that postal innovations need
to be managed more tightly and with an end-to-end perspective if they are to be
successful. 30 Innovations are not a matter of delegation, but rather of organization, from
thought to finish and should be delivered by a single unified team. Postal operators
around the world need to plan the innovation process carefully through clear end-to-end
innovation management, starting at the board level, to encourage an entrepreneurial
culture that allows innovation to grow and flourish and promotes company-wide
enthusiasm for change.

Innovation experts Vijay Govindarajan and Chris Trimble also emphasized the
importance of distinguishing the innovation team from operations, stating that “every
innovation initiative needs a special kind of team and plan.” They stated,

        one of the most common reasons that established companies struggle
        to execute innovation initiatives is that they fail to appreciate just how
        differently they must treat them. The group working on an innovation
        initiative cannot just be a home to a more creative culture….The
        innovation team must be distinct from [operations].

The Postal Service lags behind leading innovators like P&G, Nokia, and 3M. For
example, P&G created the position of vice president for innovation and knowledge and
transformed its traditional in-house research and development process into an open-


29
  Publication 131, The Postal Service Unsolicited Proposal Program, published January 2003.
30
  Innovation Management in the Postal Industry – the Key for Business Transformation, Capgemini, September 8,
2010.


                                                      19
Postal Service’s Innovation Process for Competitive                                                    MS-AR-11-004
 and Market-Dominant Products


source innovation strategy called “Connect + Develop.” 31 Launched in 2001, Connect +
Develop’s goal was to deliver 50 percent of the company's innovation through external
collaboration. P&G exceeded that goal, resulting in innovations such as Swiffer
Dusters®, Tide Total Care™, Mr. Clean® Magic Eraser, and the Oral B® Pulsonic®
Toothbrush. Connect + Develop has established more than 1,000 active agreements
with innovation partners, and in October 2010 P&G announced its intention to triple the
impact of the program.

Nokia has a research center that engages in open innovation through research
collaborations with world-leading institutions. Its Open Innovation network reflects its
ambition to foster innovation, tackle key technical challenges, and unlock global
business opportunities in collaboration with the world's leading experts.

William McKnight, former chairman of the board, created a corporate culture at 3M that
encourages employee initiative and innovation. 3M uses teams of four to six individuals
from both technical and marketing functions to explore areas where existing company
knowledge is slim, because those areas represent prime locations for generating new
products and concepts. 32 3M’s most successful product innovations, such as Scotch®
tape and Post-it® Notes, solved problems and met customer needs. These products
changed the competitive playing field by introducing new ideas to the marketplace. 33
William Coyne, former senior vice president of research and development, summarized
the 3M view of innovation: “At 3M, we live by our wits. Innovation may be an important
element of other corporate strategies; but for us, innovation is our strategy.” 34

In each case, what matters is not the exact organizational structure but that those
tasked with innovation are free to focus on innovation. Innovative companies use a top-
down innovation strategy with dedicated staff to coordinate and focus their efforts. Their
innovation teams thus have the opportunity to develop creative solutions to ever-
changing consumer demands, because they do not carry the additional burden of
meeting operational goals. Instead, they can focus on solving consumer problems and
meeting customer needs with innovative products. To understand how a company can
meet its customers’ needs, innovation teams cannot be isolated from operations, but
they must not be impeded by operational duties either.

Need to Effectively Manage Ideas from External Stakeholders

The Postal Service has a system to track ideas for improvements that are generated by
Postal Service employees. The eIDEAS program is a web-based application that allows
Postal Service employees to submit ideas online or at kiosks located in processing
plants. The Postal Service encourages employees to contribute constructive ideas to
improve customer satisfaction, generate revenue, increase productivity, and improve

31
   P&G’s website states Connect + Develop is its “version of open innovation: the practice of accessing externally
developed intellectual property in [its] own business and allowing [its] internally developed assets and know-how to
be used by others.”
32
   Shor, R. Managed Innovation: 3M’s latest model for new products, January 16, 2006.
33
   A Century of Innovation: The 3M Story, pp. 22, 102. 3M Company, 2002.
34
   Ibid., p. 32.


                                                          20
Postal Service’s Innovation Process for Competitive                                                    MS-AR-11-004
 and Market-Dominant Products


competitiveness. 35 However, management of that system has been troubled. An OIG
report published in August 2010 36 found that the eIDEAS program was not timely and
management’s resulting actions were not transparent.

Although it has a system for employee ideas, the Postal Service has not developed a
formal tracking system to capture innovation ideas presented by the public and
members of the mailing community. Such a tracking system would allow the Postal
Service to systemically evaluate the ideas presented, including trends or common
overarching themes regarding ideas for innovation.

Tracking of innovative ideas is even more important as the Postal Service begins
engaging stakeholders in a more focused way on the process of innovation. The Postal
Service has held three innovation symposiums in the past year to seriously engage with
stakeholders on innovation. At the August 11, 2010, Mailers’ Technical Advisory
Committee Innovation Symposium, one of the presenters 37 proposed creating a culture
of innovation. In Portland, OR, on September 15, 2010, the postmaster general stressed
that long-term sustainability for the Postal Service will be achieved through fundamental
change. He asked PCC and the mailing industry for their best ideas on new products
and services and encouraged them to become a part of the Postal Service’s “era of
innovation.” At the William F. Bolger Academy in Potomac, MD, on October 13, 2010,
approximately 200 stakeholders representing Congress, regulators, customers and the
Postal Service heard presentations from experts on the future of the mail and shared
their thoughts on innovation.

Some entrepreneurs seeking to partner with the Postal Service by introducing
innovative products or services offered their views regarding obstacles they
encountered. During interviews with the OIG, they described a Postal Service culture
resistant to change and unresponsive to customers’ needs. We interviewed individuals
who attempted to introduce or develop innovations at the Postal Service to obtain
feedback regarding their experiences. One individual developing innovative software for
the Postal Service noted that management delayed the project so much that it
eventually failed. However, several years later, the Postal Service implemented a
similar application. Another individual experienced significant delays in obtaining
approval for a mailing product that met his customers’ needs and satisfied Postal
Service regulations.

While the Postal Service is making an effort to engage a culture of innovation, the lack
of a comprehensive innovation strategy including systemic tracking and management of
innovative ideas has the effect of both limiting strategic vision and creating an
organization that responds slowly to a rapidly changing business and technological
environment. To overcome the challenges it faces, the Postal Service must reach
beyond its current vision and embrace a culture of innovation that begins with the most

35
   Local supervisors usually complete level 1 evaluations. District or area managers usually complete level 2
evaluations. National - level personnel or functional vice presidents usually complete level 3 evaluations.
36
   eIDEAS Timeliness and Transparency (Report Number DA-MA-10-003, dated August 3, 2010).
37
   Chuck Chamberlain and Ty Taylor, Improving Innovation at USPS.”


                                                          21
Postal Service’s Innovation Process for Competitive                          MS-AR-11-004
 and Market-Dominant Products


senior levels of management, understand the process that turns ideas into innovation,
and commit to an organizational structure that allows innovation teams to work free from
the constraints of day-to-day operations. Without such a comprehensive innovation
strategy, the Postal Service jeopardizes its long-term viability through loss of business
to electronic diversion and industry competitors.




                                                      22
Postal Service’s Innovation Process for Competitive                                                     MS-AR-11-004
 and Market-Dominant Products


                  APPENDIX C: NEW INITIATIVES INVESTMENT PROCESS

Handbook F-66D, Investment Policies and Procedures — Business Initiatives,
Alliances, Real Estate Development, and Major Operating Expense Investments,
provides guidance for investment in some new products and services, enhancements to
existing products and services, and new initiatives intended to generate revenue. New
initiatives have the potential to significantly impact revenue and have high public
visibility. Therefore, the Postal Service has a fiduciary responsibility to subject new
initiatives to rigorous financial analysis, testing, and measurement, to determine
whether they will make a positive financial contribution to the organization. However,
only a small percentage of products and services are subject to the Handbook F-66D
process.

The current product development, enhancement, and initiative investment approval
process requires Postal Service officials to:

    Generate ideas for new products, enhancement or modification to core business.
    Prepare a business proposition statement.
    Develop a business plan.
    Perform operation test.
    Perform market test.
    Implement project.
    Track performance.

Idea Generation

Generate idea for enhancement or modification to core business by:

    Listening to customers. 38
    Conducting market research.
    Obtaining sales feedback.
    Reviewing suggestions from management.
    Obtaining a competitive response.
    A representative of the senior vice president adds the idea to the project tracking
     database with the following information:

     o   Name of project (deliverable).
     o   Date proposal was submitted.
     o   Brief description of idea.
     o   Key milestones and who is responsible for action (when, who, status of action).




38
  This step takes place within the context of the internal approval process for investment spending; it does not
require active solicitation of innovative ideas from customers.



                                                          23
Postal Service’s Innovation Process for Competitive                           MS-AR-11-004
 and Market-Dominant Products


Business Proposition Statement

The project manager prepares business proposition statement, which outlines:

   Concept overview and rationale, business description, market situation, investment
    costs, and expected outcomes.

   Business definition, identifiable customers, services or product, distribution
    approach, value added, Postal Service positioning in market, and strategic fit.

   Issues to be addressed, target customers, product, market potential, competitive
    environment, Postal Service competency, technology, use of Postal Service
    facilities, capital investment, testing, and regulatory issues.

   Approval of business proposition statement by sponsoring vice president and senior
    vice president, which is then forwarded to Postal Service Finance.

Preliminary Business Plan

A cross-functional team updates the business proposition statement to form a
preliminary business plan. At a minimum, the cross-functional team includes members
from the Postal Service offices of General Counsel, Finance, and Supply Management.
The preliminary business plan includes:

   Business concept.
   Market analysis.
   Product design specifications and business impact.
   Service delivery and operations.
   Operations and market test specifications.
   Drafts of agreements and contracts.
   Quality standards and measures.
   Financial analysis.
   Project schedule and process review milestones through roll-out plan.
   Responsibilities of sponsoring vice president.
   Resolution of any issues from a cross-functional team. Submission of documents to
    the Executive Committee of preliminary business plan and proposed operations test.

Operations Test

Conduct an operations test in a geographic area representative of the operational
environment expected during roll-out. Limit the test to one market with limited
customers. The test should validate the fundamental assumptions laid out by the cross-
functional team. The project manager evaluates the results of the operations test with
the cross-functional team:

   Summarize operations test results.



                                                      24
Postal Service’s Innovation Process for Competitive                           MS-AR-11-004
 and Market-Dominant Products



   Determine if success criteria are met.

   Develop market test plan incorporating experience from operations test.

   The project manager presents the recommendations to the sponsoring vice
    president. If the success criteria are not met, recommend no go or change in
    initiative.

   The sponsoring vice president briefs the Executive Committee on recommendations
    for market test.

   Upon recommendation by the Executive Committee, the sponsoring vice president
    provides the preliminary business plan to the Strategic Planning Committee of the
    Board of Governors (BOG).

Market Test

Test according to market test plan in several major, diverse markets. Determine the
locations of the market tests based on sites that are representative of planned future
expansion. The project manager evaluates the test results with the cross-functional
team.

   Summarize market test results.
   Determine if success criteria are met.

Final Business Plan

The project manager, with input from cross-functional team, revises the business plan
incorporating experience from the market test. The project manager presents
recommendations to sponsoring vice president, making changes as necessary. If
success criteria are not met, recommend no go or change in initiative. The sponsoring
vice president briefs the senior vice president.

   The senior vice president briefs the Executive Committee on the business plan and
    makes recommendations for roll-out. The Executive Committee determines if the
    project needs approval by the BOG. If BOG approval is required, the business plan
    stage of process is followed.

   Upon recommendation by the Executive Committee, the sponsoring vice president
    provides the final business plan to the BOG Strategic Planning Committee.

   Roll out implementation to field units.

   Schedule roll-out implementation.




                                                      25
Postal Service’s Innovation Process for Competitive                          MS-AR-11-004
 and Market-Dominant Products


   Plan training.

   Plan communications.

   Execute plans.

   The project manager, in conjunction with Postal Service Finance, tracks results
    against plan and assesses continued strategic fit.

Project Implementation Review

   The senior vice president briefs the Executive Committee on the success of the roll
    out.




                                                      26
Postal Service’s Innovation Process for Competitive                             MS-AR-11-004
 and Market-Dominant Products


         APPENDIX D: EXAMPLES OF FOREIGN POSTAL ADMINISTRATION
                          INNOVATION EFFORTS

The Capgemini study stated, “There is a general tendency among all postal operators to
diversify by investments outside their core business (mail, parcel),” especially into the
logistics and financial services areas. Among European operators, Poste Italiane, Swiss
Post, Deutsche Post DHL (Germany), and Austrian Post in particular have increased
their share of the non-core business.

Poste Italiane

According to Poste Italiane’s website, investments in innovation have allowed the
company to guarantee its customers cutting-edge services and have made it an
important factor in Italy’s growth and modernization. Poste Italiane’s financial
statements have shown increasing profits for 8 years running, a memorable milestone
after 50 years of red ink.

Post Italiane introduced the Postepay prepaid card at the end of 2003. More than 5.6
million individuals in Italy have used the prepaid Postepay card, which allows customers
to make purchases and withdraw cash from ATMs and can be reloaded. Poste Italiane
charges a onetime fee of €5 ($6.44) for opening the account. Adding credit to the card
or withdrawing money costs €1 ($1.29) at an Italian Post.

Post Italiane’s Postepay Gift card can be used to pay for purchases in Italy and abroad
wherever MasterCard® is accepted. The card is issued at the time of purchase and can
be loaded with flexible denominations of up to €500 ($646). Postepay Gift is designed
for electronic use only – that is, online over the Internet and at electronic point-of-sale
locations. This enables people to shop easily and conveniently, with all of the safety,
security, and control features that electronic payment cards provide.

Poste Italiane received the “Postal Technology International Award” 2009, presented to
the year's top Service Provider for outstanding performance in terms of research and
development and process innovation.

Swiss Post

Swiss Post provides A-Post Plus service exclusively for business customers. A-Post
Plus combines next-day mail delivery service with an electronic tracking function.
A-Post Plus provides the option of on-screen tracking and monitoring of the delivery
process, including acceptance, delivery, and forwarding. Dispatch by A-Post Plus is
more cost-effective than registered mail and is the right mailing solution if receipt does
not have to be legally proven but the item contains important, valuable, irreplaceable or
time-critical documents such as contracts, degree certificates, official documents or
tickets.




                                                      27
Postal Service’s Innovation Process for Competitive                            MS-AR-11-004
 and Market-Dominant Products



Deutsche Post DHL

The Packstation is a free locker box service of DHL available since 2002 to customers
in Germany. It is an optional alternative to home deliveries. Customers can indicate via
Internet when and where they wish to receive parcels, depending on their personal
preferences and availability. Customers register to become users of the locker box
service and then receive access details such as a personal identification code or card.
Customers ordering items from retailers provide the locker box as the shipping address.
Once the delivery is made, the consignee receives a message via email.

Austrian Post

Austrian Post operates a banking network called PSK BANK. PSK BANK has an office
staffed by trained financial advisors at every postal branch and offers services including:

       Free bank accounts.
       High-yield insurance products such as retirement planning products.
       Eastern European stocks.




                                                      28
Postal Service’s Innovation Process for Competitive           MS-AR-11-004
 and Market-Dominant Products


                          APPENDIX E: MANAGEMENT’S COMMENTS




                                                      29
Postal Service’s Innovation Process for Competitive        MS-AR-11-004
 and Market-Dominant Products




                                                      30
